Diners Club®
Carte Blanche® Card
Cardmember Agreement

Cardmember Agreement
This document and the card carrier that is sent with the card together make up
your Card Agreement and throughout this document are referred to as Agreement
or Card Agreement. The card carrier contains important account information
including the amount of any membership fee. Please read and keep these
documents for your records. This Agreement is binding on you unless you cancel
your account within 30 days after receiving the card and you have not used or
authorized use of your account.
To simplify this Agreement for you, the following definitions will apply. The
words you, your, and yours mean all persons responsible for complying with this
Agreement, including the person who applied to open the account and the person
to whom we address billing statements. The word card means one or more cards
or other access devices, such as account numbers, that we have issued to permit
you to obtain credit under this Agreement. The words we, us, and our mean BMO
Harris Bank N.A. and its successor and assigns, the issuer of your account. The
words authorized user mean any person to whom you give permission to use
your account.
Disclosures for Active Duty Members of the Military and
their Dependents
The following applies to members of the military and their dependents if, at the
time you establish a covered account, you are an active duty member of the
military or you are a dependent of an active duty member of the military (as set
forth in the Military Lending Act, 10 U.S.C. 987, and its implementing regulations).
The Arbitration Provision of this Agreement does not apply to individuals covered
by this section.
Using Your Account and Your Credit Line
The card must be signed to be used. Whether you sign the card or not, you are
fully responsible for complying with all the terms of this Agreement, including
the obligation to pay us for all balances due on your account as specified in this
Agreement. Your card must only be used for lawful transactions and may not be
used to purchase goods or services for resale.
Your card can be used to buy or lease goods or services wherever the card is
honored. Your account has a credit limit, which may appear on your statement as
a spend limit. The full amount of the credit limit is available to use where the card
is honored. Subject to applicable law, we may reduce your credit limit at any time.
Your account may also include a cash limit, which will be a percentage of and
subject to your credit limit. With the Club Cash® feature, your card can also be
used to obtain cash through any bank or automated teller machine that accepts
the card, subject to your credit limit. We may reduce your cash limit at any time,
and we may limit the frequency and amount of cash withdrawals you may make
in any time period.
We will notify you of any new credit or cash limit either by sending you a notice
or through your billing statement. A change to your cash or credit limits may take
effect before you receive notification from us. You should always keep your total
balance below the credit limit. However, if the total due goes over your credit
limit you must still pay us.
Additional Cards
You may request additional cards on your account for yourself or others and you
may permit an authorized user to have access to the card or account number.
However, if you do, you must pay us for all charges made by those persons,
including charges for which you may not have intended to be responsible. You
must notify us to revoke an authorized user’s permission to use your account.
If you do so, we may close the account and issue a new card or cards with a
different account number. You are responsible for the use of each card issued on
your account according to the terms of this Agreement.
Annual Membership Fee
The annual membership fee is $300 for the primary card and $150 for each

additional card. The fee is non-refundable unless you notify us that you wish to
cancel your account within 30 days from the mailing or delivery date of the billing
statement on which the fee is billed.
Billing
Your billing statement shows the total due, any interest charges, and fees imposed
during the billing cycle, and the payment due date. It also shows your current
credit limit; an itemized list of current charges, payments and credits; an interest
charge summary; and other important information. If we deem your account
uncollectible or if we institute delinquency collection proceedings by sending it
to an outside collection agency or attorney for collection, we may, in our sole
discretion, stop sending you billing statements, unless otherwise prohibited by
applicable law.
You must notify us of a change in your address by contacting Customer Service
by telephone or mail. We will mail or deliver the billing statement to only one
address.
Automatic Billing Updater Service
We participate in the Mastercard® Automatic Billing Updater (ABU) service. When
your card number or expiration date is updated, or your account is closed, we
will provide the updated card information to merchants who participate in ABU
with whom you have automatic billing arrangements (such as telephone, cable
companies, insurance and health clubs). Since not all merchants participate in
ABU, you should notify each merchant with whom you have automatic billing
arrangements of the updated card information to ensure your payments are not
interrupted. If you do not want us to provide your card updates through ABU,
please call the customer service number on the back of your charge card and
allow 60 days for your opt out to take effect.
How We Determine the Balance
The total outstanding balance (the amount you owe us) appears as the “New
Balance” on the billing statement. To determine the New Balance, we begin with
the outstanding balance on your account at the beginning of each billing period,
called the “Previous Balance” on the billing statement. We add any purchases
and cash advances, and subtract any credits or payments credited as of that billing
period. We then add the appropriate interest charges and fees and make other
applicable adjustments.
Transaction Fee for Club Cash® Advances
You have obtained a cash advance for which we assess a cash advance transaction
fee if you obtain funds from an automated teller machine (ATM), through home
banking, or through a financial institution; make a wire transfer; acquire a money
order, traveler’s check, lottery ticket, betting or casino chip, or similar item;
or engage in another similar transaction. For each cash advance, we add an
additional charge of 4.0% of the advance, but not less than $4. The amount of the
cash advance may include a surcharge that the ATM owner imposes.
Credit Balance
You may not maintain a credit balance in excess of your credit limit. We will return
to you any credit amount over $1.00 if the amount has been on your account
longer than six months. You may request a refund of a credit balance at any time.
We may reduce the amount of any credit balance by the amount of new charges
billed to your account.
Transaction Fee for Purchases Made in Foreign Currencies
For each purchase made in a foreign currency, we add to your account an
additional fee of 3.0% of the amount of the purchase after its conversion into
U.S. dollars.
Information on Foreign Currency Conversion Procedures
Any purchase you make in a foreign currency or any cash advance you obtain
in a foreign currency will be charged to your account in U.S. dollars after being
converted by Mastercard®*. Mastercard will act according to its procedures then

in effect. Mastercard uses a conversion rate in effect on the day the purchase or
cash advance transaction is processed. The Mastercard conversion rate is either
a government-mandated rate or a wholesale market rate.
The foreign currency conversion rate in effect on the processing date for a
transaction may differ from the rate in effect on the sale or posting date on
your billing statement for that transaction. If a transaction is converted by a third
party prior to that transaction being processed by Mastercard, the foreign currency
conversion rate for that transaction will be the rate selected by that third party.
Total Due
Each month you must pay the Total Due that is shown on your billing statement.
Your Total Due equals the New Balance.
Payments
You must pay the Total Due shown on each statement by the payment due date.
Instructions for making payments are on your billing statement. In order to
be credited as of a particular day, your payment must be received in the form
specified, and by the hour specified, in those instructions. Do not send cash
payments. We can accept late or partial payments, as well as payments that
reflect “paid in full” or other restrictive endorsements, without losing any of our
rights under this Agreement. You agree to pay us in U.S. dollars drawn on funds
on deposit in the United States using a payment check, similar instrument, or
automatic debit that will be processed and honored by your bank. We reserve
the right to accept payments made in foreign currency and instruments drawn
on funds on deposit outside the United States. If we do, we will select the
effective currency conversion rate at our discretion and credit your account
in U.S. dollars after deducting any fees or costs incurred in connection with
processing your payment. If such fees or costs are not fully deducted at the time
your account is credited for a payment, we will bill you separately for them.
Optional Payment Services
Online Payments. You may pay your account online or you may request to
make your payment by phone using our optional telephone payment service.
Subject to applicable law, each time a representative of ours helps expedite your
payment, you agree to pay us $14.95. Our representatives are trained to tell
you this amount if you decide to use this optional telephone payment service.
In-Branch Payments. If you have a Diners Club branded card, you may
deliver your payment during normal business hours to a Customer Service
Representative at any bank branch identified by the BMO Harris name, brand or
logo. We will credit such payments on the day we receive them.
Late Fee
Any portion of the Total Due from a previous billing period that remains unpaid
will appear as a Past Due balance on the current card billing statement. In
addition, we will impose a late fee of up to $35. If you do not pay a Past Due
amount for two consecutive billing cycles we will assess a late fee of up to $35
or 2.5% of the entire Past Due balance each time any portion of a Total Due
balance is included in a Past Due balance and the Past Due Balance is more
than $80.00. The fee will not exceed the amount permitted by applicable law.
Returned Payment Fee
Subject to applicable law, we may add a fee of up to $29 to the account when
a payment check or similar instrument is not honored, when we must return it
because it cannot be processed, or when an automatic debit is returned unpaid.
At our option, we may assess this fee the first time your check or payment is
not honored, even if it is honored upon resubmission. The fee will not exceed
the amount permitted by applicable law.
Fees Disclosed at Time of Request
Unless prohibited by law, we also may charge you other fees from time to time.
If a fee applies to your account, we will tell you the amount of the fee at the
time you request the service.

Some fees that may apply to your account include:
1. A Replacement Card Fee if you request a replacement card;
2.	An Expedited Delivery Fee (in addition to any other applicable fees) if you
ask us to send a card by expedited delivery;
3.	A Dual Statement Fee if you ask us to send your Statements in both paper
and electronic form;
4.	A Document Fee if you ask us to provide copies of documents, such as
sales slips and receipts; and
5.	An Expedited Payment Fee if a representative of ours helps expedite your
payment.
Lost or Stolen Cards or Account Numbers
If any card or account number is lost or stolen, or if you think someone
used or may use them without your permission, notify us at once by calling
the Customer Service telephone number shown on the billing statement or
the number obtained by calling toll-free or local Directory Assistance. We
may require you to provide certain information in writing to help us find out
what happened, and to comply with such procedures as we may require in
connection with our investigation. Don’t use the card or account number after
we’ve been notified, even if they are found or returned. You may be liable
for unauthorized use of the account, but not for more than $50. You won’t be
liable for unauthorized purchases or cash advances made after we’ve been
notified of the loss or the theft; however, you must identify for us the charges
on the billing statement that were not made by you, or someone authorized
by you, and from which you received no benefit.
Default
You default under this Agreement if you fail to pay, by its due date, the Total
Due listed on each billing statement; file for bankruptcy; pay by a check or
similar instrument that is not honored or that we must return because it cannot
be processed; pay by automatic debit that is returned unpaid; or default under
any other Card Agreement that you have with us. If you default, we may,
subject to applicable law, close your account and demand immediate payment
of the total balance. For residents of New Hampshire: Reasonable attorneys’
fees will be awarded for you if you prevail in any action or suit brought by
BMO Harris Bank N.A. Also, if you successfully assert a partial defense or
counterclaim to an action brought by BMO Harris Bank N.A., the court may
withhold from BMO Harris Bank N.A. the entire amount or such portion of the
attorneys’ fees as the court considers equitable.
Preauthorized Charges
If you default, if the card is lost or stolen, or we change your account or
account number for any reason, we may suspend automatic charges on that
account to third party vendors for insurance premiums or other goods or
services. If preauthorized charges are suspended, you must contact the third
party vendor to reinstate them. You are responsible for making direct payment
for such charges until you reinstate automatic charges.
Collection Costs
If we refer collection of your account to a lawyer who is not our salaried employee,
to the extent not prohibited by applicable law, you will be liable for any reasonable
attorney’s fees we incur, plus the costs and expenses of any legal action.
ARBITRATION
PLEASE READ THIS PROVISION OF THE AGREEMENT CAREFULLY. IT PROVIDES
THAT ANY DISPUTE MAY BE RESOLVED BY BINDING ARBITRATION. ARBITRATION
REPLACES THE RIGHT TO GO TO COURT, INCLUDING THE RIGHT TO A JURY AND
THE RIGHT TO PARTICIPATE IN A CLASS ACTION OR SIMILAR PROCEEDING. IN
ARBITRATION, A DISPUTE IS RESOLVED BY AN ARBITRATOR INSTEAD OF A
JUDGE OR JURY. ARBITRATION PROCEDURES ARE SIMPLER AND MORE LIMITED
THAN COURT PROCEDURES.

Agreement to Arbitrate
Either you or we may, without the other’s consent, elect mandatory, binding
arbitration for any claim, dispute, or controversy between you and us (called
“Claims”).
Claims Covered
•	What Claims are subject to arbitration? All Claims relating to your
account, a prior related account, or our relationship are subject to
arbitration, including Claims regarding the application, enforceability, or
interpretation of this Agreement and this arbitration provision. All Claims
are subject to arbitration, no matter what legal theory they are based on
or what remedy (damages, or injunctive or declaratory relief) they seek.
This includes Claims based on contract, tort (including intentional tort),
fraud, agency, your or our negligence, statutory or regulatory provisions,
or any other sources of law; Claims made as counterclaims, crossclaims, third-party claims, interpleaders or otherwise; and Claims made
independently or with other claims. A party who initiates a proceeding
in court may elect arbitration with respect to any Claim advanced in that
proceeding by any other party. Claims and remedies sought as part of
a class action, private attorney general or other representative action
are subject to arbitration on an individual (non-class, non-representative)
basis, and the arbitrator may award relief only on an individual (nonclass, non-representative) basis.
•	Whose Claims are subject to arbitration? Not only ours and yours, but
also Claims made by or against anyone connected with us or you or
claiming through us or you, such as a co-applicant or authorized user of
your account, an employee, agent, representative, affiliated company,
predecessor or successor, heir, assignee, or trustee in bankruptcy.
•	What time frame applies to Claims subject to arbitration? Claims arising
in the past, present, or future, including Claims arising before the opening
of your account, are subject to arbitration.
•	Broadest interpretation. Any questions about whether Claims are subject
to arbitration shall be resolved by interpreting this arbitration provision
in the broadest way the law will allow it to be enforced. This arbitration
provision is governed by the Federal Arbitration Act (the “FAA”).
•	What about Claims filed in Small Claims Court? Claims filed in a
small claims court are not subject to arbitration, so long as the matter
remains in such court and advances only an individual (non-class, nonrepresentative) Claim.
How Arbitration Works
•	How does a party initiate arbitration? The party filing an arbitration must
choose one of the following two arbitration firms and follow its rules and
procedures for initiating and pursuing an arbitration: American Arbitration
Association or JAMS. Any arbitration hearing that you attend will be held
at a place chosen by the arbitration firm in the same city as the U.S.
District Court closest to your then current billing address, or at some other
place to which you and we agree in writing. You may obtain copies of the
current rules of each of the arbitration firms and forms and instructions
for initiating an arbitration by contacting them as follows:
American Arbitration Association
800-778-7879 (toll free) Website: www.adr.org
JAMS
800-352-5267 (toll free) Website: www.jamsadr.com
At any time you or we may ask an appropriate court to compel arbitration
of Claims, or to stay the litigation of Claims pending arbitration, even if such
Claims are part of a lawsuit, unless a trial has begun or a final judgment has
been entered. Even if a party fails to exercise these rights at any particular
time, or in connection with any particular Claims, that party can still require
arbitration at a later time or in connection with any other Claims.

•	What procedures and law are applicable in arbitration? A single, neutral
arbitrator will resolve Claims. The arbitrator will be either a lawyer with
at least ten years experience or a retired or former judge, selected in
accordance with the rules of the arbitration firm. The arbitration will
follow procedures and rules of the arbitration firm in effect on the date
the arbitration is filed unless those procedures and rules are inconsistent
with this Agreement, in which case this Agreement will prevail. Those
procedures and rules may limit the discovery available to you or us.
The arbitrator will take reasonable steps to protect customer account
information and other confidential information if requested to do so by
you or us. The arbitrator will apply applicable substantive law consistent
with the FAA and applicable statutes of limitations, will honor claims of
privilege recognized at law, and will have the power to award to a party
any damages or other relief provided for under applicable law. You or
we may choose to have a hearing and be represented by counsel. The
arbitrator will make any award in writing and, if requested by you or us,
will provide a brief statement of the reasons for the award. An award in
arbitration shall determine the rights and obligations between the named
parties only, and only in respect of the Claims in arbitration, and shall not
have any bearing on the rights and obligations of any other person, or on
the resolution of any other dispute.
•	Who pays? Whoever files the arbitration pays the initial filing fee. If we
file, we pay; if you file, you pay, unless you get a fee waiver under the
applicable rules of the arbitration firm. If you have paid the initial filing
fee and you prevail, we will reimburse you for that fee. If there is a
hearing, we will pay any fees of the arbitrator and arbitration firm for the
first day of that hearing. All other fees will be allocated as provided by the
rules of the arbitration firm and applicable law. However, we will advance
or reimburse your fees if the arbitration firm or arbitrator determines
there is good reason for requiring us to do so, or if you ask us and
we determine there is good reason for doing so. Each party will bear
the expense of that party’s attorneys, experts, and witnesses, and other
expenses, regardless of which party prevails, but a party may recover any
or all expenses from another party if the arbitrator, applying applicable
law, so determines.
•	Who can be a party? Claims must be brought in the name of an
individual person or entity and must proceed on an individual (nonclass, non-representative) basis. The arbitrator will not award relief for
or against anyone who is not a party. If you or we require arbitration of
a Claim, neither you, we, nor any other person may pursue the Claim
in arbitration as a class action, private attorney general action or other
representative action, nor may such Claim be pursued on your or our
behalf in any litigation in any court. Claims, including assigned Claims,
of two or more persons may not be joined or consolidated in the same
arbitration. However, applicants, co-applicants, authorized users on a
single account and/or related accounts, or corporate affiliates are here
considered as one person.
•	When is an arbitration award final? The arbitrator’s award is final and
binding on the parties unless a party appeals it in writing to the arbitration
firm within fifteen days of notice of the award. The appeal must request
a new arbitration before a panel of three neutral arbitrators designated
by the same arbitration firm. The panel will consider all factual and legal
issues anew, follow the same rules that apply to a proceeding using a
single arbitrator, and make decisions based on the vote of the majority.
Costs will be allocated in the same way they are allocated for arbitration
before a single arbitrator. An award by a panel is final and binding on
the parties after fifteen days has passed. A final and binding award is
subject to judicial review and enforcement as provided by the FAA or
other applicable law.

Survival and Severability of Terms
This arbitration provision shall survive: (i) termination or changes in the
Agreement, the account, or the relationship between you and us concerning
the account; (ii) the bankruptcy of any party; and (iii) any transfer, sale or
assignment of your account, or any amounts owed on your account, to any
other person or entity. If any portion of this arbitration provision is deemed
invalid or unenforceable, the entire arbitration provision shall not remain in
force. No portion of this arbitration provision may be amended, severed, or
waived absent a written agreement between you and us.
Credit Reporting
We may report information about your account to credit bureaus. Late
payments, missed payments, or other defaults on your account may be
reflected on your credit report. If you request additional cards on your account
for others, you understand that we may report account information in your
name as well as in the names of those other people. We may also obtain
follow-up credit reports on you (for example, when we review your account
for a credit line increase). If you wish to know the names of the agencies we
have contacted, write us at the Customer Service address listed on the billing
statement. We will try to notify you by telephone or by mail of any legal
process served on us in order to give you an opportunity to object to it, unless
the law prohibits the notice. If you think we reported erroneous information to
a credit reporting agency, write us at the Customer Service address listed on
the billing statement. We will promptly investigate the matter. We will then
tell you if we agree or disagree with you. If we agree, we will contact each
credit reporting agency to which we reported and will request they correct
the report. If we disagree with you after our investigation, we will tell you in
writing or by telephone and instruct you how to submit a statement of your
position to those agencies. Your statement will become a part of your credit
record with them. As required by Utah law, you are hereby notified that a
negative credit report reflecting on your credit record may be submitted to a
credit reporting agency if you fail to fulfill the terms of your credit obligations.
Consent to Telephone Calls and Monitoring
You authorize us (which includes, for the purposes of this paragraph, our
agents and representatives) to contact you using automatic telephone
dialing systems, artificial or prerecorded voice message systems, email and
text messaging systems in order to provide you with information regarding
your account, including information about missed payments, the suspected
misuse of your card, or general servicing items. You authorize us to make
such contacts using any telephone numbers (including wireless, landline and
Voice Over Internet Protocol numbers) you have supplied or will supply to us
in connection with your account or any other account you may have or will
establish with us. You understand that anyone with access to your telephone
may listen to or read the messages we leave or send you, and you agree that
we will have no liability for anyone accessing such messages. You further
understand that, when you receive a telephone call or text message, you may
incur a charge from the company that provides you with telecommunications,
wireless and/or data services, and you agree that we will have no liability for
such charges. You expressly authorize us to monitor and record your calls with
us. You agree that you are the owner and/or primary user of any telephone
number or email address you provide to us and that you will notify us if this is
no longer true as to any such telephone number or email address.
Closing Your Account
You may close your account at any time by notifying us in writing or over the
phone. However, you remain responsible to pay the total balance according
to the terms of this Agreement. We may close your account or suspend your
account privileges at any time for any reason not prohibited by applicable law
without prior notice. We may also reissue a different card or account number
at any time. You must return the card to us upon request.

Refusal of the Card
We are not responsible if a transaction on your account is not approved, either
by us or by a third party, even if you have sufficient credit available. We may
limit the number of transactions that may be approved in one day. If we detect
unusual or suspicious activity on your account, we may suspend your credit
privileges until we can verify the activity.
Changing this Agreement
We may change the rates, fees, and terms of this Agreement from time to time
as permitted by law. Changing terms includes adding, replacing, or deleting
provisions of this Agreement. These changes are binding on you. Subject to
applicable law, we will give you advance written notice of the changes and a
right to opt out to the extent required by law.
Enforcing this Agreement
We can delay in enforcing or fail to enforce any of our rights under this
Agreement without losing them.
Assignment
We may assign any or all of our rights and obligations under this Agreement
to a third party.
Applicable Law
The terms and enforcement of this Agreement shall be governed by federal law
and the law of Illinois, where we are located. This Agreement and your account
are governed by, to the extent that state law applies, the law of Illinois without
regard to its conflict of law principles. Further, this Agreement is made in Illinois
and credit is extended to you from Illinois, regardless of where you live or use
your account.
For Maryland residents only, to the extent federal law and the laws of the State
of Illinois do not apply, this Agreement is governed by Title 12, Subtitle 9 of the
Maryland Commercial Law Article.
New Jersey Residents
Because certain provisions of this Agreement are subject to governing law, they
may be void, unenforceable or inapplicable in some jurisdictions. None of these
provisions are void, unenforceable or inapplicable with New Jersey.
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act
What To Do If You Find a Mistake On Your Statement
If you think there is an error on your statement, write to us at the address for
billing inquiries and correspondence shown on the front of your statement.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
•	Description of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
•	At least 3 business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you
do we are not required to investigate any potential errors and you may have to
pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.	Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.

2.	Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
•	We cannot try to collect the amount in question, or report you as delinquent
on that amount.
•	The charge in question may remain on your statement, and we may continue
to charge you interest on that amount.
•	While you do not have to pay the amount in question, you are responsible for
the remainder of your balance.
• We can apply any unpaid amount against your revolving credit limit.
After we finish our investigation, one of two things will happen:
•	If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
•	If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement
of the amount you owe and the date payment is due. We may then report you
as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we cannot
report you as delinquent without also reporting that you are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent,
and we must let those organizations know when the matter has been settled
between us.
If we do not follow all the rules above, you do not have to pay the first $50 of
the amount you question even if your bill is correct.
Your Rights if You are Dissatisfied with Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1.	The purchase must have been made in your home state or within 100 miles
of your current mailing address, and the purchase price must have been more
than $50. (Note: Neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the company that sold
you the goods or services.)
2.	You must have used your credit card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses your credit card
account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing at the address for billing inquiries and correspondence shown
on the front of your statement.
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that
point, if we think you owe an amount and you do not pay, we may report you
as delinquent.
Banking products and services are subject to bank and credit approval and are provided by
BMO Harris Bank N.A. Member FDIC.
	Diners Club, Diners Club International with the Split Circle Device, Carte Blanche and Club Cash are
registered trademarks of Diners Club International Ltd.
* Mastercard is a registered trademark of Mastercard International Incorporated.

®

®

© 2018 BMO Harris Bank N.A. All Rights Reserved.
F03-W757-9

10058169 (06/18)

